No.

In the
Supreme Court of the United States
HAMP'S CONSTRUCTION, L.L.C., ET AL.,
Petitioners,
v.
INLAND MARINE SERVICES LLC,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Louisiana

Appendix
John I. Hulse IV

Counsel of Record
Conroy Law Firm, PLC
3501 N. Causeway Boulevard, Suite 500
Metairie, Louisiana 70002
Tel: (504) 830-3450
jih@conroylawfirm.com

TABLE OF CONTENTS
Page
Denial of Writ Application, Supreme Court of
Louisiana, dated September 06, 2019 .............. A-1
Opinion, First Circuit Court of Appeal of Louisiana,
dated April 12, 2019 .......................................... A-2
Judgment, 19th Judicial District Court, Parish of
East Baton Rouge, Louisiana,
dated April 24, 2018 ........................................ A-12
Judgment, 19th Judicial District Court, Parish of
East Baton Rouge, Louisiana,
dated January 10, 2018 ................................... A-14
Award of Arbitrator, dated July 11, 2017 ............ A-16
Subcontract Agreement, dated May 17, 2003 ...... A-25

A-1

The Supreme Court of the State of Louisiana
INLAND MARINE SERVICES, L.L.C.
No.2019-C-00729
VS.
HAMP'S CONSTRUCTION, LLC
-----IN RE: The Hartford Fire Insurance Company Applicant Defendant; Hamp’s Construction, L.L.C. Applicant Defendant; Applying For Writ Of
Certiorari, Parish of East Baton Rouge, 19th Judicial
District
Court
Number(s)
659,557,
Court
of Appeal, First Circuit, Number(s) 2018 CA 1152;
-----September 06, 2019
Writ application denied.
JLW
JDH
SJC
JTG
SMC
Supreme Court of Louisiana
September 06, 2019
_________________________
Clerk of Court
For the Court

A-2

NOT DESIGNATED FOR PUBLICATION
STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
2018 CA 1152
INLAND MARINE SERVICES, L.L.C.
VERSUS
HAMP’S CONSTRUCTION, LLC
Judgment rendered APR 12 2019
*****
On Appeal from the
Nineteenth Judicial District Court
In and for the Parish of East Baton Rouge
State of Louisiana
No. C659557, Sec. 25
The Honorable Wilson Fields, Judge Presiding
*****

J. Mark Robinson
Baton Rouge, Louisiana
And
David W. Carley
E. Allen Graves, Jr.
David C. Voss
Joshua J. Coleman
Baton Rouge, Louisiana

Attorneys for Plaintiff/Appellee
Inland Marine Services, L.L.C.

A-3
John I. Hulse, IV
Brian A. Gilbert
Metairie, Louisiana

Attorneys for
Defendants/Appellants
Hamp’s Construction LLC, and
Hartford Fire Insurance Company

*****
BEFORE: McDONALD, CRAIN, AND HOLDRIDGE,
JJ.

A-4

HOLDRIDGE, J.
Hamp’s Construction LLC (Hamp’s) and its
surety,
Hartford
Fire
Insurance
Company
1
(Hartford), appeal from a district court judgment
confirming an arbitration award in favor of Inland
Marine Services, L.L.C. (Inland). We affirm.
PROCEDURAL AND FACTUAL BACKGROUND
Hamp’s was the general contractor for a public
works project described as Fourchon Beach
Rehabilitation, Phase 1 – Greater Lafourche Port
Commission – Port Fourchon, Lafourche Parish.
Pursuant to a written contract signed in May of
2013, Inland was a subcontractor of Hamp’s on the
project. The project owner was the Greater Lafourche
Port Commission, and the project plans and
specifications were prepared by the Commission’s
engineer and furnished to Inland by Hamp’s. Inland
was to install geotube containers, scour apron, and
anchor tubes along the coastline of the Gulf of Mexico
in Lafourche Parish. The subcontract required
Inland to complete the work within forty-five days
from the first day that its equipment and manpower
Hartford was not named as a defendant in Inland’s motion to
confirm the arbitration award, and it was not named in the
judgment or in the denial of the motion for new trial. Hartford
is appealing the judgment as Hamp’s surety, and Inland has
not challenged its right to appeal. Pursuant to La. C.C.P. art.
2086, a person who could have intervened in the district court
may appeal, and Hartford alleged in the motion for appeal that
it and Hamp’s had paid $363,892.25 to Inland.
1

A-5

were on site, which was on June 4, 2013. Inland did
not finish the work until about August 23, 2013,
beyond the forty-five day period.
On May 5, 2016, Inland initiated arbitration
through the American Arbitration Association in
accordance with the contract to obtain payment for
the balance due under the contract and delay
damages, among other items. A hearing was held
before an arbitrator on May 8-12, 2017. On July 11,
2017, the arbitrator rendered a decision in favor of
Inland in the amount of $497,639.57, with legal
interest from October 1, 2013 until the date of the
award, totaling $75,859.36; administrative fees and
expenses of the American Arbitration Association,
totaling $22,400.00; and the compensation and
expenses of the arbitrator, totaling $19,200.00. The
arbitrator also awarded Inland additional interest at
the rate of twelve percent from July 11, 2017 (the
date of the award) until paid in full, if the sums
awarded were not paid in full within thirty days of
July 11, 2017. Hamp’s paid $315,067.57 of the
award, which represented the subcontract balance,
plus interest, for a total of $363,892.25, and this
portion of the award is not at issue. The portion of
the award remaining at issue represents the extra
work Inland performed totaling $190,454.00, less a
credit of $7,882.00 for Inland's use of Hamp’s
equipment.
On July 14, 2017, Inland filed a petition to
confirm the arbitration award in the district court. 2
We note that at the time of filing the petition for confirmation
of the arbitration award, Inland attached the arbitration award,
but it did not attach the agreement to arbitrate as required by
2

A-6

In response, Hamp’s filed a motion to partially
vacate the award and to modify or correct the award.
The matter was heard by the district court on
December 11, 2017. On January 10, 2018, the district
court signed a judgment wherein it confirmed the
arbitration award in all respects except for its
modification of one paragraph of the arbitration
award to state that if the sums awarded by the
arbitrator were not paid in full within thirty days,
Hamp’s must pay Inland additional interest on all
sums awarded at the Louisiana legal rate from the
date of the award until paid; the award was attached
to the court's judgment as an exhibit. Hamp’s filed a
motion for new trial as to the district court's
judgment.3 The district court denied the motion for
new trial, and from this ruling and the earlier
judgment, Hamp’s and Hartford appeal.
La. R.S. 9:4214. The agreement was attached to Hamp’s motion
to partially vacate the arbitration award and the motion to
modify the award, and that copy of the agreement was offered
into evidence along with the suit record by counsel for Inland at
the hearing in district court on the confirmation of the award.
Hamp’s and Hartford did not raise any issues regarding the
arbitration agreement itself. Cf. Worldwide Asset Purchasing,
L.L.C. v. Sanders, 2010-1160 (La. App. 1 Cir. 3/3/11), 2011 WL
940493 (unpublished) (This court held that an arbitration
award could not be confirmed without proof of a valid
arbitration agreement on a motion for summary judgment
where the appellant challenged the validity of the agreement to
arbitrate.) Since Hamp’s and Hartford did not raise any issue as
to the failure of Inland to attach the agreement to arbitrate to
the petition, and this agreement was offered into evidence, we
decline to further address this issue.
We note that Hartford joined with Hamp’s in filing the motion
for new trial. See footnote 1.
3

A-7

On appeal, Hamp’s and Hartford raise four
assignments of error, contending that the district
court erred: in failing to vacate and correct the
arbitration award (1) where
the arbitrator exceeded his powers and
executed them so imperfectly as to preclude a
final award, where the arbitrator's actions
demonstrate prejudice and partiality, where
the arbitrator ignored a known, controlling
principle of law and failed to apply it, rather
than merely applying it erroneously, and
where
the
award
contains
material
miscalculations;
(2) in awarding delay damages of $190,454.00; (3) in
failing to credit Hamp's with $16,664.40, which
represented signed work tickets for equipment rental
and associated costs by Inland; and (4) in denying
the motion for new trial.
DISCUSSION
Under the Louisiana Arbitration Law, La. R.S.
9:4201-4217, a party to an arbitration proceeding
may, within one year after the award is made, apply
to the district court for confirmation of the award,
and the court must confirm the award unless it is
vacated, modified, or corrected. La. R.S. 9:4209. It is
well-settled in both state and federal courts that an
award may be challenged only on the grounds
specified in the applicable arbitration statute.
Crescent Property Partners, LLC v. American Mfrs.
Mut. Ins. Co., 2014-0969 (La. 1/28/15), 158 So.3d 798,
803; MMR-Radon Constructors, Inc. v. Continental

A-8

Ins. Co., 97-0159 (La. App. 1 Cir. 3/3/98), 714 So.2d 1,
5, writ denied, 98-1485 (La. 9/4/98), 721 So.2d 915. A
court does not ordinarily sit in an appellate capacity
to an arbitration panel, but confines its
determination to whether there exists one or more of
the specific grounds for impeachment as provided for
under the applicable statute. Crescent Property
Partners, 158 So.3d at 804; MMR-Radon
Constructors, Inc., 714 So.2d at 5. The applicable
statutes to which we must confine our review in this
case are La. R.S. 9:4210(D) and La. R.S. 9:4211(A).
Louisiana Revised Statutes 9:4210(D) states, in
pertinent part, that the court in and for the parish
where the award was made shall vacate the award
“[w]here the arbitrators exceeded their powers or so
imperfectly executed them that a mutual, final, and
definite award upon the subject matter submitted
was not made.” Louisiana Revised Statutes 9:4211(A)
provides that the court in and for the parish where
the award was made shall modify or correct an
award “[w]here there was an evident material
miscalculation of figures or an evident material
mistake in the description of any person, thing, or
property referred to in the award.” The type of
“evident material miscalculation of figures”
contemplated by La. R.S. 9:4211 would be one akin to
a mathematical error as distinguished from an error
in the value or legal conclusions underlying the
arbitrator's award. See Bergeron v. Patel, 2016-0600
(La. App. 1 Cir. 5/17/17), 2017 WL 2170142
(unpublished), writ denied, 2017-1270 (La. 10/27/17),
228 So.3d 1226. The burden of proof is on the party
attacking the award. See Crescent Property
Partners, 158 So.3d at 804.

A-9

The arbitrator in his award set forth his
factual findings and analyzed the parties’ claims. He
made the following determinations based on a
preponderance of credible evidence: the project's
design, plans, and specifications were deficient; the
ruptures in the geotube containers were not Inland's
fault; due to design deficiencies and changes and
adverse weather and unforeseen site conditions,
Inland failed to complete the work within forty-five
days and performed additional work, incurred
additional costs, and sustained damages; Hamp’s had
actual knowledge and adequate notice of Inland's
additional work and costs; Inland was entitled to
additional compensation for the additional work and
material; the subcontract required Inland and
Hamp’s to “work together, and cooperate with each
other, to pursue any claims for additional time and
money from the Owner/Engineer;” the subcontract
prohibited
Inland
from
having
direct
communications with the Owner/Engineer; during
the project, Inland submitted five applications for
payment totaling $386,277.67; Hamp’s paid Inland
$71,210.10 late; during the project, Hamp's supplied
equipment for Inland's benefit, and Inland agreed to
pay Hamp’s; and Inland completed the work required
by the subcontract, but Hamp’s breached the
subcontract by failing to make timely payments of
the subcontract price and by failing to work together
with Inland in the pursuit of clams for additional
time and money due Inland. The arbitrator noted
that Hamp's failure to cooperate on pursuing claims
for additional time and money was “clearly evidenced
by inter alia its unreasonable refusal to pay even the
Subcontract price.” The arbitrator awarded Inland
the balance of the subcontract price and some delay
damages with interest but rejected Inland’s claims

A-10

for statutory penalties and attorney’s fees. The
arbitrator awarded Hamp’s claim for equipment
Inland used during the project in the amount of
$7,882.00, but rejected Hamp's other claims.
On appeal, Hamp’s and Hartford basically
contend that the arbitrator’s decision grossly departs
from the facts espoused by Hamp’s and Inland's own
expert, Robert Gregory. They argue that Mr.
Gregory's key findings in his report are that design
defects, as opposed to fault by Hamp's or Inland,
caused the delays in the project, and that the
arbitrator incorrectly applied the contractual
provisions to the factual circumstances of the case.
Hamp's and Hartford assert that the arbitrator erred
in failing to grant Hamp's the costs for equipment
rental and manpower used by Inland. Hamp's and
Hartford have only presented arguments related to
the merits of whether the arbitrator erred in
awarding judgment in favor of Inland. Even if we
were to disagree with the arbitrator's decision on the
merits, there is no evidence that the arbitrator
exceeded or imperfectly executed his powers in this
matter. Thus, there were no grounds for the district
court to vacate or modify the arbitration and this
court is prohibited from reviewing the merits of the
arbitrator's decision. This court has generally
adhered to the exclusivity of the statutory provisions
for vacating or modifying an arbitration award and
has not embraced the additional jurisprudentiallycreated circumstance of “manifest disregard for the
law” as a legal basis for vacating an arbitration
award. See Preis Gordon, APLC v. Chandler, 20150958 (La. App. 1 Cir. 2/26/16), 191 So.3d 31, 36, writ
denied, 2016-0590 (La. 5/20/16), 191 So.3d 1067.
Errors of fact or law do not invalidate a fair and

A-11

honest arbitration award. See Preis Gordon, 191
So.3d at 35. Hamp’s and Hartford may not seek
review of the merits of a case that has been
submitted to arbitration by couching their arguments
in terms of the arbitrator having exceeded his
authority. Furthermore, an arbitrator’s conclusions
drawn from conflicting evidence do not equate to
misconduct or use of undue means in resolving
disputed facts, and consequently, do not provide a
basis for vacating an arbitration award. See Kyocera
Mita America, Inc. v. Key Office Equipment, 20101205 (La. App. 1 Cir. 2/11/11), 2011 WL 766934
(unpublished). Hamp’s and Hartford’s complaints as
to the arbitrator's findings as to Hamp’s and
Hartford's claims for equipment rental and
manpower do not involve a mathematical error as
would justify modifying or vacating that part of the
award, but instead are based on a factual error as to
the award, which this court has no authority to
address.
Therefore,
Hamp's
and
Hartford's
assignments of error have no merit, and the district
court did not err in confirming the arbitration award.
CONCLUSION
For the foregoing reasons, we affirm the
January 10, 2018 and April 24, 2018 judgments of
the district court. All costs of this appeal are
assessed against Hamp's Construction, LLC and
Hartford Fire Insurance Company.
AFFIRMED.

A-12

INLAND MARINE
SERVICES, L.L.C.
VERSUS
HAMP’S
CONSTRUCTION,
L.L.C

§ SUIT NO. 659,557; SEC. 25
§
§
§ 19TH JUDICIAL
§ DISTRICT COURT
§
§ PARISH OF EAST
§ BATON ROUGE
§
§ STATE OF LOUISIANA
JUDGMENT

This matter came on to be heard on April 16,
2018 on a motion for new trial by Hamp’s
Construction, L.L.C.. Present in court were: J. Mark
Robinson for Inland Marine Services, L.L.C. and
Brian A. Gilbert for the defendant, Hamp’s
Construction, L.L.C.
In consideration of said pleadings and the
record of this proceeding, the applicable law and the
argument of the parties
IT IS ORDERED that the motion for new trial
filed by Hamp’s Construction, L.L.C. is DENIED.
JUDGMENT, READ, RENDERED AND
SIGNED in Baton Rouge, Louisiana this 24 day of
April, 2018.
_________________________
HONORABLE JUDGE,
19th JUDICIAL DISTRICTCOURT,
PARISH OF EAST BATON ROUGE

A-13
I HEREBY CERTIFY THAT ON THIS DAY
A COPY OF THE WRITTEN REASONS
FOR
JUDGMENT/JUDGMENT/ORDER/
WAS MAILED BY ME, WITH SUFFICIENT
POSTAGE AFFIXED TO:

Respectfully Submitted,

DONE AND SIGNED ON 4-27-18

ROBINSON LAW FIRM

DEPUTY CLERK OF COURT

By:
J. MARK ROBINSON, #21058
412 North 4th Street, Room 329
Baton Rouge, LA 70802
Telephone: (225) 246-2133
Telecopier: (225) 246-2244
Email: mark@markrobinsonlawfirm.com

A-14

INLAND MARINE § SUIT NO. 659,557; SEC. 25
SERVICES,L.L.C. §
§
VERSUS
§ 19TH JUDICIAL
§ DISTRICT COURT
§
HAMP'S
§ PARISH OF EAST
CONSTRUCTION, § BATON ROUGE
L.L.C.
§
§ STATE OF LOUISIANA
JUDGMENT
This matter came on to be heard on December
11, 2017 on a petition for confirmation of an
arbitration award (the “Award”; the Award is
attached hereto and incorporated herein by reference
as Exhibit 1) by plaintiff, Inland Marine Services,
L.L.C. (“Inland Marine”) and a (i) motion to partially
vacate arbitration award pursuant to LSA-R.S.
9:4210; (ii) motion to modify/correct arbitration
award pursuant to LSA-R.S. 9:4211 and on judicial
grounds of manifest disregard for Louisiana law; and
(iii) opposition to confirm award all by defendant
Hamp’s Construction, L.L.C. Present in court were:
J. Mark Robinson for Inland Marine and John I.
Hulse, IV for the defendant, Hamp’s Construction,
L.L.C..
In consideration of said pleadings and the
record of this proceeding, the applicable law and the
argument of the parties
IT IS ORDERED that the Paragraph 5.4 of the
Award is modified and amended to read as follows:

A-15

If the sums awarded herein are not paid in full
within 30 days of the date hereof, Hamp's
Construction, LLC shall pay Inland Marine
Services, LLC additional interest on all sums
awarded herein, at the Louisiana legal rate
from the date of this Award until paid.
IT IS FURTHER ORDERED that the petition
for confirmation of an arbitration award filed by
Inland Marine Services, L.L.C. is GRANTED and the
Award is confirmed in all respects unless otherwise
provided herein.
JUDGMENT, READ, RENDERED, AND
SIGNED in Baton Rouge, Louisiana on this 10 day of
January 2018.
Respectfully Submitted,
ROBINSON LAW FIRM
By: ___________________
J. MARK ROBINSON, #21058
412 North 4th Street, Room 329
Baton Rouge, LA 70802
Telephone: (225) 246-2 1 33
Telecopier: (225) 246-2244
Email: mark@markrobinsonlawfirm.com
Inland
Marine
Services,
LLC
v.
Hamp’s
Construction, LLC, Suit No. 659,557, Section 25,
19th JDC, Parish of East Baton Rouge, State of
Louisiana

A-16

AMERICAN ARBITRATION ASSOCIATION
Construction Industry Arbitration Tribunal

In the Matter of Arbitration Between:
INLAND MARINE SERVICES, LLC

Claimant
VS.

CASE NUMBER:
01-16-0001-6732

HAMP’S CONSTRUCTION, LLC

Respondent
AWARD OF ARBITRATOR
I, THE UNDERSIGNED ARBITRATOR having been
designated in accordance with the arbitration
agreement entered into by the parties, and having
been duly sworn and having heard the allegations
and proofs of the parties, hereby AWARD as follows:
1. Introduction
1.1. This dispute arises out of a “Subcontract
Agreement” signed in May 2013 by Hamp's
Construction, LLC (“Hamp’s”) as Contractor and
Inland
Marine
Services,
LLC
(“IMS”)
as
Subcontractor, related to a public works project
described as Fourchon Beach Rehabilitation, Phase
I—Greater Lafourche Port Commission—Port

A-17

Fourchon, Lafourche Parish, LA (the “Project”). The
Project Owner was Greater Lafourche Port
Commission. The Project plans and specifications
were prepared by the Owner’s engineer and
furnished to IMS by Hamp's.
1.2. The Subcontract work included the installation
of approximately 5500 linear feet of geotube
containers, scour apron, and anchor tubes along the
Gulf coastline in Lafourche Parish. The Subcontract
required IMS to complete all the work within 45 days
from the first day that its equipment and manpower
were on site. IMS began work on or about June 4,
2013 and finished on or about August 23, 2013.
Hamp's claims that IMS was responsible for delayed
completion and withheld payment of a substantial
portion of the Subcontract price. IMS claimed
compensation in excess of the Subcontract price for
extended duration and additional costs.
1.3. On or about May 5, 2016, IMS filed a Demand
for Arbitration with the American Arbitration
Association, asserting claims for the balance due
under the Subcontract, damages for extended
duration and additional work, plus interest,
attorney's fees, statutory penalties and costs.
1.4. On or about May 18, 2016, Hamp's filed a
Counterclaim against IMS, alleging breaches of the
Subcontract and seeking a reduction of the
Subcontract price for reduced work scope, plus
damages for delay costs, extra work, and material
overruns, plus interest, costs, and attorney's fees.
1.5. Evidentiary hearings were conducted in Baton
Rouge, Louisiana between May 8-12, 2017, during

A-18

which the parties presented witness testimony and
documentary evidence. The parties made posthearing submissions on June 7 and 28, 2017.
2. Findings
2.1. The preponderance of the credible evidence
proved the following:
2.1.1. The Project’s design, plans, and specifications
were deficient, as evidenced by multiple design
changes made after Project commencement.
2.1.2. Ruptures in the geotube containers were not
the result of any proven fault on the part of IMS.
2.1.3. Design deficiencies, changes in design,
unforeseen site conditions, and adverse weather
conditions prevented IMS from completing its work
scope within the 46-day period specified in the
Subcontract
2.1.4. IMS did not materially delay the completion of
the Project, and did not cause damage to Hamp's.
2.1.5. IMS performed additional work, incurred
additional costs, and sustained damages as a result
of design deficiencies, design changes, and
unforeseen/undisclosed site conditions. Hamp’s had
actual knowledge and adequate notice of IMS's
additional work and additional costs.
2.1.6. The Subcontract incorporated by reference the
Terms and Conditions of the prime contract (between
Hamp's and Owner), which allowed for additional

A-19

compensation for work and material not covered by
the contract.
2.1.7. The Subcontract required IMS and Hamp's to
“work together and cooperate with each other to

pursue any claims for additional time and money
from the Owner/Engineer.” The Subcontract

prohibited IMS from having direct communications
with the Owner/Engineer.
2.1.8. During the Project, IMS submitted five
applications for payment which totaled $386,277.67.
Hamp’s paid IMS $22,760.10 on July 19, 2013 and
$48,450.00 on August 19, 2013; both payments were
approximately one month late. Hamp's made no
other payments to IMS.
2.1.9. During the Project, Hamp's supplied
equipment for the benefit of IMS, for which IMS
agreed to make payment to Hamp's.
2.1.10. IMS completed all of the work required by the
Subcontract.
2.1.11. Hamp's breached the Subcontract by failing to
make timely payments of the Subcontract price, and
by failing to work together and cooperate with IMS
in the pursuit of claims for additional time and
money due IMS. With regard to IMS's claims for and
entitlement to additional compensation, Hamp's
failure to cooperate was clearly evidenced by inter
alia its unreasonable refusal to pay even the
Subcontract price.

A-20

3. Analysis of the Claims by IMS
3.1. Subcontract Balance: IMS earned the sum of
$386,277.67, of which Hamp's paid IMS only
$71,210.10. IMS’s claim for the balance of the
Subcontract price of $315,067.57 is granted.
3.2. Statutory Penalties:
IMS claims penalties
pursuant to La. R.S. 9:2784. While the evidence
proved that Hamp’s did not have reasonable cause to
withhold Subcontract payments from IMS, Louisiana
case law indicates that penalties under the
referenced statute are not available on Public Works
projects. Accordingly, this claim is dented.
3.3. Attorney’s Fees: The Subcontract states that
“Contractor and Subcontractor shall bear their own

legal costs which shall not be recoverable from either
party.” Although La. R.S. 9:2784 would provide a
basis for IMS’s recovery of attorney’s fees under the
facts of this case, the referenced Subcontract clause
must be construed and enforced as a mutual waiver
of the parties' rights to recover attorney’s fees.
Accordingly, this claim is denied.
3.4. Delays and Extra Work: IMS claimed damages
in the amount of $241,294.00 for 41 separate
days/events itemized in the report of its expert,
Grecon Construction Engineers, Inc. (“Grecon”).
Some of the amounts claimed are non-compensable
under the terms of the Subcontract. However, the
preponderance of the credible evidence proved that
IMS performed additional work, incurred extra costs,
and sustained delay damages for which it is entitled
to additional compensation, in the sum of
$190,454.00. Accordingly, this claim is granted to

A-21

that extent. IMS failed to carry its burden of proof as
to the remaining claim items under this category,
which are denied.
3.5. Cost: IMS made claims for fees of an expert
witness; however, no evidence was submitted to
support this claim. Accordingly, it is denied.
3.6. Interest:
IMS’s claim for interest at the
Louisiana legal rate is granted. Interest on the
Subcontract balance and extra work claims shall
accrue from October 1, 2013 (which is 30 days
following IMS's completion of the work and issuance
of its final invoice).
4. Analysis of the Claims by Hamp's
4.1. Direct Events Costs: IMS agreed to pay Hamp’s
for certain equipment (with operators) used for IMS’s
benefit during the project. Although Hamp’s did not
invoice IMS for the equipment during construction,
during the hearings IMS conceded that it owes
Hamp’s $7,882.00 for this item. This claim is
therefore granted to that extent Hamp’s failed to
prove that IMS agreed to pay or is otherwise
responsible for any additional costs for equipment or
operators; accordingly, the remaining claim items
under this category are denied.
4.2. Prolonged Completion Costs: Hamp’s failed to
prove that IMS was responsible for Project delays or
prolongation of the construction period. Accordingly,
this claim is denied.
4.3. Deduction for Reduced Scope: The evidence
indicated that the engineer reduced the final

A-22

elevation of some of the geotubes. However, Hamp's
did not prove that IMS’s work effort was reduced as a
result of that change, or that Hamp’s is otherwise
entitled to reduce the Subcontract price as a result of
that design change. Accordingly, this claim is denied.
4.4. Deduction for Granular Material Overage: This
claim for alleged overruns in the amount of sand
supplied by Hamp’s to IMS is based on (a) the
erroneous conclusion that IMS was responsible for
geotube ruptures (and resulting loss of sand), and (b)
anecdotal evidence that IMS occasionally allowed its
filler pipe to discharge slurry onto the ground and
into the Gulf of Mexico. Hamp’s failed to carry its
burden of proof as to this claim; accordingly, it is
denied.
4.5. Attorney’s Fees: Although Hamp's originally
demanded attorney's fees, its final submissions
acknowledged that the Subcontract contains a waiver
of the parties’ rights to recover attorney’s fees.
Accordingly, to the extent this claim was not formally
withdrawn, it is denied.
5. Summary and Award
5.1. Hamp's Construction, LLC shall pay Inland
Marine Services, LLC the net principal sum of
$497,639.57, itemized as follows:
Subcontract balance:
Extra work:
Less: credit for use of
Hamp's equipment
Total:

$315,067.57
$190,454.00
($7,882.00)
$497,639.57

A-23

5.2. ln addition to the above, Hamp’s Construction,
LLC shall pay Inland Marine Services, LLC interest
on the net principal sum, at the Louisiana legal rate,
from October 1, 2013, until the date of this award,
which interest totals $75,859.36.
5.3. The administrative fees and expenses of the
American Arbitration Association totaling $22,400.00
and the compensation and expenses of the Arbitrator
totaling $19,200.00 shall be borne in their entirety by
Hamp’s Construction LLC. Accordingly, Hamp’s
Construction, LLC shall reimburse Inland Marine
Services, LLC the additional sum of $20,800.00
representing that portion of said fees and expenses in
excess of the apportioned cost previously incurred by
Inland Marine Services, LLC.
5.4. If the sums awarded herein are not paid in full
within 30 days of the date hereof, Hamp’s
Construction, LLC shall pay Inland Marine Services,
LLC additional interest on all sums awarded herein,
at the rate of 12% per annum from the date of this
Award until paid in full.
5.5. This Award is made in full settlement of all
claims and counterclaims submitted to this
Arbitration. Any and all claims and/or counterclaims
that are not expressly granted herein are hereby
denied and dismissed with prejudice.
5.6. The Arbitrator commands all counsel for the
skillful and professional manner in which they
advocated the interests of their respective clients In
their presentation of evidence and arguments.

A-24

Date: July 11, 2017
Eric A. Kracht, Arbitrator

A-25

SUBCONTRACT AGREEMENT

Between: Hamp’s Construction, LLC, hereafter
referred to as Hamp’s or Contractor, a Louisiana
domiciled limited liability company located at:
1319 Newton St. New Orleans, LA 70114
and
Inland Marine Services, LLC, hereafter referred to
as IMS or Subcontractor, a Louisiana domiciled
limited liability company located at:
1959 Woodchase Blvd. Baton Rouge, LA 70808
(1) THE PROJECT: Fourchon Beach Rehabilitation,
Phase I – Greater Lafourche Port Commission
(GLPC) – Port Fourchon, Lafourche Parish, LA
(2)

DESCRIPTION OF SERVICES:
IMS shall provide Hamp’s with all necessary
equipment, labor, small tools, pumping equipment,
hoses, piping, fuels, oils, technical experience,
supervision, insurance and quality control to fully
complete the Geosynthetic Materials Installation
portion of the Project in strict accordance with the
Project Plans, Specifications & Addenda prepared by
Picciola and Associates, Inc. for GLPC (dated:01-1113). All work shall be in strict accordance with the
Geosynthetic Tubes manufacturer’s instructions. If
any conflict is discovered, IMS shall immediately
notify Hamp’s in writing in order to obtain further
instruction and/or clarification from the Project
Engineer and the Manufacturer. Any work installed
without
proper
written
instruction
and/or
clarification shall be at the sole risk of subcontractor.
IMS shall construct the complete Geosynthetic Tubes

A-26

System as shown on the project drawings and as
described in the project specifications and addenda
including placement of all Scour Aprons, placement
and filing of all Anchor Tubes and Geosynthetic
Tubes (Geotubes) and making any required
connections. Hamp’s shall furnish and coordinate
delivery of all initial Geosynthetic materials and
Sand Fill Materials. If any additional materials are
needed due to loss or damage caused by, nonconforming work of Subcontractor, improper storage,
theft, subcontractor’s equipment or workers,
subcontractor’s accidents or carelessness, then
subcontractor shall bear any and all replacement
cost. Any damage resulting from the other
construction activities (i.e. placement of the sand
berm) or any subcontractors, other than IMS, than it
shall be the responsibility of Hamp’s or the other
subcontractors who shall bear any and all
replacement and/or repair cost. If either Hamp’s or
IMS notices any damaged materials, theft or loss of
materials or deficient materials it shall be
immediately reported to the other party for any
required action. Both parties shall have the
opportunity to investigate and document the
damage/loss before the area of concern is disturbed.
When Geosynthetic materials arrive at the jobsite an
IMS representative will sign for receipt of those
materials and IMS shall become the sole custodian of
those materials and bear full responsibility in the
event of any loss and/or damage, except as described
above.
IMS shall supply Hamp’s with materials hopper(s),
sand/slurry pumping system, all piping and
connections, small tools, equipment and labor
necessary to carry out IMS’ work in order to provide

A-27

Hamp’s with a complete and in-place product that
conforms with the project requirements. IMS shall be
responsible for any and all of its employee housing,
travel, vehicle and per diem costs.
Hamp’s shall provide all necessary materials,
equipment, labor, fuels, oils, and insurance to load
riversand to fill Geosynthetic Tubes into the IMS
furnished hopper at a rate of .85 cyd to 1 cyd per
minute to properly facilitate the filing of
Geosynthetic Anchor Tubes and Geosynthetic Tubes.
The hopper shall be loaded in a manner to allow for
continuous operations during the indicated hours of
operation so as not to impede IMS’s production.
Hamp’s shall supply all necessary material,
equipment, labor, small tools, fuels, oils, technical
experience, supervision, insurance and quality
control to fully install and construct the sand base
and/or subgrade required for proper installation of
the Geosynthetic Scour Apron with Anchor Tubes
and Geosynthetic Tubes. The sand base and/or
subgrade shall be properly constructed to the
required elevations, limits, and other criteria
established as per the Prime Contract plans and
specifications. The sand base and/or subgrade shall
proceed in a continuous manner so as not to
negatively impact the installation of the Geosythetic
Scour Apron with Anchor Tubes and Geosynthetic
Tubes by IMS.
Upon completion of Geosynthetic Tube placement
and filling operations and approval/acceptance by the
project engineer (Picciola & Associates, Inc.), those
approved/accepted reachs defined by their endpoint
Station Numbers shall revert to the sole custody of

A-28

Hamp’s. Hamp’s shall bear full responsibility in the
event of any loss and/or damage.
In the event of any faulty workmanship or faulty
installation on behalf of IMS, IMS shall stand stand
behind its work and make any necessary corrections.
In the event the GEOTUBE materials fail due to
faulty Geosynthetic materials provided by the
manufacturer of the Geosynthetic materials,
including but not limited to, hidden latent defects in
the Geosynthetic materials, IMS shall cooperate with
Hamp’s Construction in the pursuance of any
claim(s) against the manufacturer of the
Geosynthetic materials. IMS cooperation shall be
limited to providing technical information, copies of
documentation and explanation(s) of any problems or
defects observed in connection with the Geosynthetic
materials. If any re-work and/or re-installations of
GEOTUBE is required due to defective Geosynthetic
materials IMS shall be compensated by way of a
Change Order issued from Hamp’s.
This proposal specifically excludes any work other
than the placement of the Geosynthetic Scour Apron
with Anchor Tubes and the Geosythetic Tubes, and
the filing of those tubes. The sand to fill the tubes
will be provided by Hamp’s at no cost to IMS.
IMS shall comply with all terms and conditions of
the project plans, specifications and addenda, all
federal, state and local laws, and ordinances. Hamp’s
shall be responsible for, any and/all permits, licenses
and associated fees required for the project with the
exception of any required permits or fees in
connection with transporting oversized loads or

A-29

equipment to and from the project. Contractor and
Subcontractor shall bear each their own cost
associated with transportation to and from the
project.
IMS shall comply with all OSHA guidelines and shall
maintain a drug free work place. IMS shall
administer a Project Health, Safety and Quality
Control/Quality Assurance Program acceptable to the
Contractor for the Fourchon Beach Rehabilitation,
Phase I Project in Lafourche Parish, Louisiana.
IMS onsite supervisor shall hold weekly on-site
project safety meetings and keep records of those
meetings. The Contractor will provide IMS with
Daily Report Forms that must be completed by IMS
onsite supervision. ALL Safety Meeting Records and
Completed Daily Reports MUST be submitted to
Hamp’s onsite supervisor on the following business
day of its occurrence.
(3) ALL PAYMENTS TO SUBCONTRACTOR
SHALL BE MADE ON A LUMP SUM and UNIT
PRICE BASIS (As set forth below):
The work that SUBCONTRACTOR shall perform
under this agreement is shown on the Louisiana
Uniform Public Work Bid Form/Unit Price Form,
Page I of the project bid documents as:
REF. NO. 727-01-00100
MOBILIZATION
CONTRACT QUANTITY–1 LUMP SUM
Hamp’s shall pay IMS a lump sum of $39,930.00 for
Mobilization. Payment shall be split 60% for

A-30

mobilization due in IMS’s first invoice which shall be
generated and submitted to Hamp’s upon
commencing project mobilization. The remaining
40% shall be due and invoiced by IMS after they
have completed their demobilization.
REF. NO. S-001.
GEOTUBE CONTAINER, SCOUR APRON AND
ANCHOR TUBES. CONTRACT QUANTITY–5,500
LINEAR FEET.
Hamp’s shall pay IMS for the actual field verified
quantity of GEOTUBE CONTAINER, SCOUR
APRON AND ANCHOR TUBES installed and
approved by the project engineer at the Unit Price
Sixty-Three Dollar and 75/cents ($63.75) Per Linear
Foot.
The unit price of $63.75 per linear foot paid to IMS
will be full compensation for its work on the project,
including but not limited to, labor, equipment, fuels,
oils, small tools, safety supplies, supervision, and
insurance, for installing and filing the Geosynthetic
Scour Apron and Anchor Tubes, and the
Geosynthetic Tubes.
(4) PROMPT PAYMENT:
Hamp’s shall pay IMS within five (5) business days
of receiving payment from the Owner for all
approved invoices for work completed by IMS.
(5) CONTRACT RETAINAGE WITHHELD:
In accordance with Louisiana law the Owner is
withholding Retainage from Hamp’s in the amount of
five (5) percent from each invoice until final
completion of the project. Hamp’s shall also withhold

A-31

five (5) percent from this agreement with IMS until
it is paid by the Owner at which time Hamp’s will
pay IMS in full within five (5) business days of IMS
submitting its invoice and executed clear lien
certificate to Hamp’s.
(6) COMPLETION TIME:
Time is of the essence- Subcontractor shall mobilize
its equipment and manpower and be fully staffed and
ready to commence its work within seven (7)
calendar days of receiving written order from
Contractor. Subcontractor shall complete all aspects
of its work, excluding Demobilization, within fortyfive (45) calendar days from the first day that its
equipment and manpower are onsite. The first day
shall be considered Contract Day Number One of the
Subcontractors allowed performance period. Upon
mobilization of Subcontractor’s equipment and
manpower, Contractor and Subcontractor shall meet,
discuss and mutually agree as to which day shall be
designated as Day 1 of the Subcontractor’s allowed
performance period. The Subcontractor’s Daily
Reports shall bear the corresponding Contract Day.
Number on the report. Subcontractor shall provide
its full workforce and equipment to work a minimum
of six (6) days per week, ten (10) hours per day. The
IMS expected schedule for operations is seven (7)
days per week, ten (10) to twelve (12) hours per day.
For each and every day that Subcontractor’s work
exceeds the allowed forty-five (45) calendar days,
Subcontractor shall only be liable for Contractor’s
actual out-of-pocket delay cost suffered. Liquidated
Damages shall not be an arbitrary penalty.
Delays–IMS shall not be responsible for any delays
resulting from the delivery of materials and/or

A-32

supplies provided by Hamp’s delays to the
installation of the Geotextile Scour Apron with
Anchor Tubes resulting from Hamp’s construction of
the sand base and/or subgrade, and/or delays
resulting from Hamp’s inability or failure to feed
sand into the IMS provided sand hopper at the
stipulated rates. Delays resulting from these items
shall be compensated to IMS on a day for day basis,
or fraction thereof, and added to their initial 45
calendar day schedule. For each and every day that
must be added to the Subcontractor’s 45 day
schedule due to the impacts resulting from these
items, the Contractor shall only be liable for the
Subcontractor’s actual out-of-pocket delay cost
suffered. If either Contractor or Subcontractor
contend that they are being delayed due to the
performance or non-performance of the other party,
written notice must be given to the other party’s
onsite supervisor within three (3) business days of
the onset of the delay. As soon as a delay notice is
made both Contractor and Subcontractor shall meet
to seek resolution within the guidelines established
above for the delay as to mitigate any additional
expenses. Any and all items that are being claimed
as delayed shall be listed on the daily report along
with a detailed explanation.
In the event of any delays that are not caused by the
performance of the Contractor or Subcontractor but
are attributed to weather conditions, site conditions,
differing site conditions, project plans and/or
specifications, design and/or engineering issues or
any other reason that could be caused by the Owner,
Engineer or the Project Site, the Contractor and
Subcontractor shall work together, and cooperate
with each other, to pursue any claims for additional

A-33

time and money from the Owner/Engineer for the
Project. Pertaining to time only, if the Engineer
allows contract credit for any weather days during
the time period that this work is being performed,
credit shall also be given to IMS on an equal basis.
Accellerated Production–Accellerated production by
either Contractor or Subcontractor shall not be cause
for a delay claim against the other party. Both IMS
and Hamp’s have thirty-six (36) planned work days
to install the required subgrade and GEOTUBE
system which is equal to one hundred and fifty
two.77 (152.77) linear feet per work day.
Accordingly, both Contractor and Subcontractor will
be staffed and equipped to meet the anticipated daily
production rate of 152.77 L.F. per workday. If either
party exceeds the anticipated daily production rate of
152.77 L.F. per day and the other party meets but
does not exceed the anticipated daily production rate
of 152.77 L.F. per day, the other party shall not be
liable for delay.
(7) IMS agrees to employ sufficient men and
materials to do the work timely, properly and in such
manner as not to delay Contractor or others. IMS
agrees to coordinate its work properly with others
and the Contractor and maintain a qualified and
capable job site supervisor in attendance at all times
while work is in progress.
IMS is fully familiar with the job site, working
conditions project plans, specifications, addenda and
general conditions of the contract between Owner
and Contractor, and IMS binds itself to Contractor,
as Contractor is bound to the Owner.

A-34

(8) IMS shall purchase and maintain insurance, as
provided below, to protect Contractor and Owner
from claims which may arise out of or result from
operations of IMS or any other under this agreement,
whether such claims arise during the performance or
subsequent to completion of the agreement.
Insurance must be placed in companies acceptable to
Contractor and evidence that such insurance is in
force must be provided to the Contractor prior to
IMS’s commencing operations. Contractor may
require IMS to furnish copies of said policies for the
Contractor’s review. No insurance shall be canceled,
materially changed, or allowed to lapse by IMS until
the contract has been completed and the work
accepted. In the event that any policy is written on a
claims made form, the certificate of insurance shall
state and designate the applicable policy. In the
event of cancellation, material change, or nonrenewal by the Insurer, or expiration, 30 days
advance written notice shall be given to the
Contractor by the insurance company or companies.
A. Workers Compensation
IMS shall provide and maintain Workers
Compensation Insurance as required by Federal and
State Statutes. The Workmen’s Compensation
Insurance Policy shall include a waiver of
subrogation in favor of Contractor and Owner. The
parties recognize and agree that for all purposes
under the Louisiana Workers Compensation Law
that Hamp’s Construction LLC is the statutory
employer of IMS’s employees and statutory
employees in respect to all work under this
subcontract.

A-35

B. Bodily Injury & Property Damage Liability
Insurance
IMS shall take out and maintain during the life of
this agreement such Bodily Injury and Property
Damage Liability Insurance and Automobile
Property Damage and Liability Insurance as shall
protect him and any other person or party
performing work under the agreement from claims
for personal injury or property damage which may
arise from his operations. Hamp’s Construction LLC
shall be named as an additional insured under such
policies. In addition, this shall be reciprocated with
Inland Marine Services, LLC being named as an
additional insured under Hamp’s Identical policies.
Coverage and limits shall be no less than as follows:
1. Automobile Liability Insurance
Bodily Injury and Property Damage Combined Single
Limits no less than $1,000,000 per occurrence for
owned non-owned and hired vehicles.
2. Comprehensive General Liability Insurance
Coverage shall include Contractor’s contingent
protective liability, completed operations/products
liability, XCU exclusions, removed (if applicable to
IMS’s operations), contractual liability covering
indemnification provisions contained in this
agreement,
remove
watercraft
exclusion
(if
applicable to IMS’s operations, or in the alternative,
provide Protection and Indemnity Insurance on
watercraft used in IMS’s operations). Policy should
provide waiver of subrogation in favor of Hamp’s

A-36

Construction LLC. This shall also be a reciprocated
agreement with Hamp’s Policy providing a waiver of
subrogation in favor of Inland Marine Services, LLC.
Bodily Injury and Property Damage Combined Single
Limits shall be no less than $1,000,000 per
occurrence, $2,000,000 aggregate for these policies.
C. Indemnification & Hold Harmless Agreement
IMS shall hold harmless, indemnify and defend
Hamp’s Constructions, LLC, its members, managers,
owners, employees, agents and all other of Hamp’s
affiliate companies from any and all claims, losses,
damages, lawsuits, judgments and demands arising,
or alleged to arise, from IMS’s involvement with the
Fourchon Beach Rehabilitation Phase I Project.
Hamp’s shall hold harmless, indemnify and defend
Inland Marine Services, LLC, it’s members,
managers, owners, employees, agents and all other of
IMS’s affiliate companies from any and all claims,
losses, damages, lawsuits, judgments and demands
arising, or alleged to arise, from Hamp’s involvement
with the Fourchon Beach Rehabilitation Phase I
Project.
This agreement is not assignable by IMS.
Should any disputes arise out of this agreement
between Contractor and Subcontractor they shall be
settled by means of arbitration before the American
Arbitration Association (AAA). Contractor and
Subcontractor shall bear their own legal costs which
shall not be recoverable from either party.

A-37

Should any claims and/or disputes arise out of this
agreement by Contractor or Subcontractor against
the Owner/Engineer, the venue to resolve these
matters shall be a court of proper jurisdiction within
the state of Louisiana and all terms and conditions
set forth in the contract between the Owner and
Contractor
shall
prevail
over
Contractor,
Subcontractor and any terms stated herein this
subcontract agreement.
EEO clauses are hereby incorporated as required by
41 CFR-60-1.4(a), 41 CFR 60-250.4(m) and 41 CFR
60-741.4(f).
Monthly invoices must be in the office no later than
the 25th of each month. Only AIA invoices are
accepted on forms G702 and G703. (Hamp’s Billing
Dept. Will Provide These Forms and Assist if
Necessary).
Payment is contingent upon architects/engineers
acceptance and approval of work and Hamp’s
receiving payment from Owner.
All communication between IMS and the Owner
shall be strictly through Hamp’s and all
correspondence
shall
be
kept
in
writing.
Subcontractor shall not communicate directly with
Owner/Engineer.
The General Specifications and Terms and
Conditions in the contract between the Owner and
Hamp’s shall govern in the event any area is not
addressed, or there is a conflict with any portion of
this agreement.

A-38

This Subcontract should not be construed to
provide any technical or design specifications
whatsoever. The Project Plans, Specifications,
Addenda and General Specifications provided by
Picciola & Associates, Inc. on behalf of the Greater
Fourchon Port Commission (GLPC) for the Fourchon
Beach Rehabilitation, Phase I Project are provided
for that purpose. The Contractor makes no warranty
in connection with the Project Plans, Specifications,
Addenda and General Specifications provided by
Picciola & Associates, Inc. for the Project.
Insert any special conditions/comments/notes:

A-39

Signature PageHamp’s Construction, LLC - Contractor
BY:
Charlie Hampton
DATE:
Inland Marine Services, LLC (IMS) Subcontractor
BY:
DATE:
PLEASE SIGN BEFORE NOTARY AND RETURN
WITH A COPY OF RESOLUTION OF AUTHORITY
TO SIGN ON BEHALF OF COMPANY, LLC OR
CORPORATION
THANK YOU
cc: File

